   October 24, 2002




Acquisition

Fuel Cells of the V-22 Osprey Joint
Advanced Vertical Aircraft
(D-2003-013)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
EMD                   Engineering and Manufacturing Development
FAA                   Federal Aviation Administration
FSD                   Full-Scale Development
IOT&E                 Initial Operational Test and Evaluation
LRIP                  Low-Rate Initial Production
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                          Logistics
          Office of the Inspector General of the Department of Defense
Report No. D-2003-013                                                  October 24, 2002
  (Project No. D2002AE-0065.001)

                        Fuel Cells of the V-22 Osprey Joint
                           Advanced Vertical Aircraft

                                   Executive Summary

Who Should Read This Report and Why? This report should be read by all who are
interested in Marine Corps aviation, DoD acquisition processes, and aviation safety. The
report discusses fuel cell safety considerations for the V-22 Osprey Joint Advanced
Vertical Aircraft (V-22) used for flight testing.

Background. This audit resulted from allegations referred to the Office of the Inspector
General of the Department of Defense by the Commandant of the Marine Corps on
December 27, 2001. Of those allegations, four concerned the crashworthiness of the fuel
cells or tanks installed on the V-22. Specifically, it was alleged by a Marine aviator that:
        • the fuel cell installed in the V-22 was not able to withstand the required
        10g (gravitational acceleration) impact;
        • a fuel cell that could withstand the impact was developed but not installed
        because of structural issues affecting the weight of the aircraft;
        • the V-22 design could have incorporated breakaway fuel cells, which break
        away on impact to prevent fires and explosions, but, instead, incorporated fuel
        cells that will burst and flood the cabin with fuel; and
        • because the V-22 fuel cells did not pass the drop test, the V-22 fuel cell
        standards were lowered to incorporate a cell design that would work and still
        maintain a weight savings.
Appendix B of this report covers those four allegations. The Office of the Inspector
General of the Department of Defense addressed the other allegations in a separate report,
dated August 19, 2002.

On May 29, 2002, the Navy restarted engineering and manufacturing development (EMD)
flight testing of the V-22 aircraft. As of October 2002, the program was in low-rate initial
production. The Under Secretary of Defense for Acquisition, Technology, and Logistics
(the Under Secretary) has not determined a date for the full-rate production decision.

Results. Safety risks for V-22 flight testing were not minimized because V-22 aircraft in
use for EMD flight testing have noncrashworthy fuel cells. The V-22 fuel cells in the
sponsons for the 4 EMD aircraft, the aft fuel cell in the right fuselage sponson for the
12 low-rate initial production aircraft in Lots 1 and 2, and all fuel cells in the fuselage
sponsons for the 7 low-rate initial production aircraft in Lot 3 did not meet
crashworthiness standards. Further, the V-22 fuel cells in the EMD aircraft and in the
low-rate initial production aircraft in Lots 1, 2, and 3 did not meet ballistic live-fire
requirements. For subsequent lots, the contractor developed sponson fuel cells that meet
crashworthiness and ballistic requirements. The V-22 Program Office plans to install
those compliant fuel cells at an average cost to the Government of about $512,000 per
aircraft on the 17 remaining low-rate initial production aircraft from Lots 1 through 3.
However, the V-22 Program Office does not plan to install crashworthy sponson fuel cells
on V-22 aircraft used for EMD testing. As a result, the safety risk to aircrews of those
aircraft will not be minimized if the aircraft are not retrofitted before further flight testing.

The Navy did not approve retrofitting the EMD aircraft with crashworthy fuel cells to
minimize aircrew risk because those aircraft would be used only for flight testing.
Consequently, on March 15, 2002, we requested that the Under Secretary determine
whether the risk of flying the EMD aircraft with noncrashworthy fuel cells was acceptable.
On April 3, 2002, the Under Secretary responded, stating that the benefits of returning to
flight as scheduled to address other technical concerns outweighed the limited risk
reduction attained by retrofitting the aircraft with crashworthy fuel cells. The Under
Secretary also stated that he agreed with the assessment by the Commander, Naval Air
Systems Command that the risk of conducting developmental testing with noncrashworthy
fuel cells was within manageable flight test boundaries and with the Commander’s decision
to return to developmental testing with aircraft having noncrashworthy fuel cells. The
Commander cited a system safety assessment of the V-22 as part of the basis for his
decision; however, the V-22 Program Office and Boeing were not able to provide us with
documentation that supported the system safety risk assessment.

On May 28, 2002, in response to an informal recommendation, the Under Secretary stated
that the Navy had now formally documented its risk assessment process. However, when
the Under Secretary made his decision, the risk assessment was not supported by
documentation and the methodology used was flawed. On June 7, 2002, we informed the
Under Secretary that the risk assessment raised a fundamental question concerning the
evaluation methodology used because it did not consider the unique nature of the EMD
testing and the EMD test aircraft. On July 12, 2002, the Navy provided the supporting
data for the risk assessment, which was less than adequate. To have been a meaningful
risk assessment, the methodology should have been revised to include a crash frequency
probability based on the past performance of either the V-22 EMD test or other
developmental aircraft. Further, the system safety risk assessment model should have
been adjusted to account for the nonindependence between the “probability that the crash
occurs over land” and the “probability that a crash is survivable.” Using the crash
frequency probability data that the Navy did provide and adjusting for the revised
methodology, the safety risk assessment code would increase from undesirable or a
medium safety risk to unacceptable or high safety risk. (See the Finding section of the
report for the detailed recommendations.)
Management Comments. In response to the draft report, the Under Secretary stated that
he has again concluded that the benefits of continuing to fly to address his other technical
concerns outweighed the limited risk reduction attained by stopping the V-22 flight test
program and retrofitting fuel cells with greater crashworthiness on the four EMD-only
aircraft. The Under Secretary agreed that the Military Departments should use relevant
methodology in their risk assessment procedures, including calculations of risk probability,
and that risk assessments should be fully supported and documented. The Under Secretary
stated that his office will ensure that the Military Departments’ safety organizations review
their procedures and update them, as appropriate. (See the Finding section of this report
for a discussion of the management comments and the Management Comments section of
the report for the complete text of the comments.)




                                                ii
Table of Contents

Executive Summary                                                             i


Introduction
     Background                                                               1
     Objectives                                                               3

Finding
     V-22 Fuel Cell Crashworthiness and Ballistic Requirements                4

Appendixes
     A. Scope and Methodology                                                15
           Prior Coverage                                                    16
     B. Results of Allegations’ Review                                       17
     C. Definitions of Technical Terms                                       19
     D. V-22 Aircraft Configurations                                         22
     E. Fuel Cell Waiver Request and Approval                                24
     F. Office of the Inspector General of the Department of Defense
           Memorandum Concerning Noncrashworthy Fuel Cells                   26
     G. Under Secretary of Defense for Acquisition, Technology, and
           Logistics Memorandum Concerning Noncrashworthy Fuel Cells         27
     H. Under Secretary of Defense for Acquisition, Technology, and
           Logistics Memorandum Concerning Installation of V-22 Fuel
           Cells                                                             29
     I. Under Secretary of Defense for Acquisition, Technology, and
           Logistics Memorandum Concerning Safety of V-22 Fuel Cells         30
     J. System Safety Risk Assessment of Engineering and Manufacturing
           Development V-22 Noncompliant Sponson Fuel Cells                  31
     K. Initial Analysis of V-22 System Safety Risk Assessment               39
     L. Office of the Inspector General of the Department of Defense
           Memorandum Concerning Safety of V-22 Aircraft                     42
     M. Navy Response to Questions on the System Safety Risk Assessment
           for V-22 Fuel Cells                                               43
     N. Analysis of the Navy Response to Issues With the System Safety
           Risk Assessment for V-22 Fuel Cells                               52
     O. Report Distribution                                                  64

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   67
Source: Naval Air Systems Command V-22 Website

V-22 Osprey Joint Advanced Vertical Aircraft
Background
    Allegation. The Office of the Inspector General of the Department of Defense
    received multiple allegations concerning the viability of the V-22 Osprey Joint
    Advanced Vertical Aircraft (the V-22). This audit resulted from allegations
    referred to us by the Commandant of the Marine Corps on December 27, 2001.
    The audit addressed four allegations concerning the crashworthiness of the fuel
    cells or tanks installed on the V-22. The Office of the Inspector General of the
    Department of Defense will address the other allegations in a separate report.
    See Appendix B for further details regarding the four allegations.

    V-22 Aircraft. The V-22, a Navy Acquisition Category ID program, is a
    tilt-rotor, vertical take-off and landing aircraft, which operates as a helicopter
    for takeoffs and landings and, once airborne, converts to a turboprop aircraft.
    The V-22 is expected to operate in global and regional conflicts in support of
    operations ranging from peacetime engagements to conventional, high-intensity,
    general warfare. The V-22 has three variants: the Marine Corps variant to
    meet amphibious and vertical assault needs, the Navy variant to be used for
    rescue needs, and the Air Force variant for special operations missions. The
    V-22 Osprey will replace the Marine Corps CH-46E Sea Knight and the
    CH-53D Sea Stallion. Appendix C provides additional definitions of technical
    terms used in this report.

    The V-22 Program started in December 1981 and was originally managed by the
    Army until it was transferred to the Navy in 1982. The Under Secretary of
    Defense for Acquisition, Technology, and Logistics (USD[AT&L]) approved
    the entry of the V-22 into low-rate initial production (LRIP) in April 1997, and
    delegated future V-22 production decisions to the Navy. However, in May
    2001, the USD(AT&L) designated the V-22 as an Acquisition Category ID
    program, thereby rescinding the previous delegation. The V-22 Program
    Manager manages the V-22 acquisition program under the Program Executive
    Office, Air Anti-Submarine Warfare, Assault, and Special Mission Programs.
    Bell Boeing, a joint venture of Bell Helicopters Textron and the Boeing
    Company, teamed up to develop and produce the V-22.

    Since the V-22 Program began in 1981, it has lost four aircraft. In June 1991, a
    full-scale development (FSD) V-22 aircraft experienced a vertical takeoff
    accident due to improper installation of sensors in the flight control system. In
    July 1992, a second FSD aircraft encountered a fatal accident because of drive
    shaft and engine failure resulting from compressor stall and fire. In April 2000,
    an LRIP aircraft experienced an excessive rate of descent and the effects of a
    vortex ring state that resulted in an asymmetrical loss of lift accompanied by a
    roll at too low an altitude to recover before ground impact. In December 2000,
    another LRIP aircraft crashed resulting from the loss of a hydraulic line
    combined with a flight control software malfunction. As a result of the mishaps
    and operational suitability issues identified in testing, the Secretary of Defense
    established an independent review of the V-22 Program by a group known as
    “The Blue Ribbon Panel.” The Blue Ribbon Panel found no evidence of
    inherent safety flaws in the V-22 tilt-rotor concept and recommended that the
    program be continued, but restructured. The Blue Ribbon Panel determined that

                                         1
        the V-22 aircraft lacked the maturity needed for full-rate production or
        operational use and made recommendations for corrective action. Based on the
        Blue Ribbon Panel’s recommendations, the USD(AT&L) restructured the
        V-22 Program and required extensive additional flight testing.

        The Navy and the Air Force plan to acquire 397 and 40 aircraft, respectively, at
        an estimated cost of $37.2 billion from FY 1982 through FY 2015. As of
        March 2002, the Navy had acquired or contracted for 40 V-22 aircraft
        consisting of FSD, engineering and manufacturing development (EMD), and
        LRIP aircraft, as shown in the following table and Appendix D.1


                               V-22 Aircraft Under Contract or Delivered

                                                     Aircraft
                          Acquisition                Under            Aircraft
                            Phase                    Contract         Delivered

                          FSD                            6                 52
                          EMD                            4                 4
                          LRIP Lot 1                     5                 53
                          LRIP Lot 2                     7                 54
                          LRIP Lot 3                     7                 0
                          LRIP Lot 4                    11                 0

                            Total                       40                 19



        On May 29, 2002, the Navy restarted EMD flight testing of the V-22 aircraft.
        As of October 2002, the program was in LRIP; however, USD(AT&L) has not
        determined a date for the full-rate production decision.
        V-22 Fuel Cells. The V-22 fuel cell is a flexible bladder that is shaped to fit the
        designated cavity in the V-22 aircraft and is designed to hold aircraft fuel. All
        fuel cells are to be self-sealing when penetrated by a 12.7 millimeter or
        .50 caliber armor-piercing projectile and meet a drop test requirement of 65 feet
        when filled with water.

        The three V-22 variants have different fuel cell configurations. The Navy and
        Marine Corps variants have five fuel cells integrated into the wings and fuselage
        sponson:5 two wing feed cells, two forward sponson cells, and a right aft
        sponson cell. The Air Force variant has four additional cells in each wing.

1
  Subsequent to the completion of our audit fieldwork, the Navy notified us that it had contracted for
20 LRIP aircraft for Lots 5 and 6. Our review included only those LRIP aircraft from Lots 1 through 4.
2
  Two of those aircraft crashed, one was used for live-fire testing, and two are display aircraft. One of
the aircraft under contract was never built.
3
  One of those aircraft crashed.
4
  One of those aircraft crashed.
5
  A sponson is a projection from the side of the aircraft that holds the fuel cells and landing gear.

                                                    2
     Each variant can carry additional auxiliary cells in the cabin for self-deployment
     missions. The following figure shows the fuel cell configurations.



                                              Forward sponson fuel cells


          Wing feed fuel cells




         Wing auxiliary fuel cells


                                                      Right aft sponson
          Cabin auxiliary                             fuel cell
          fuel cells




     V-22 Fuel Cell Configuration

     Source: Naval Air Systems Command V-22 Website


Objectives
     The primary audit objective was to review the documentation associated with
     developing, contracting, testing, and installing the fuel cells on the V-22 and the
     future funding for fuel cell improvements. See Appendix A for a discussion of
     the audit scope and methodology, and prior coverage related to the audit
     objectives.



                                          3
            V-22 Fuel Cell Crashworthiness and
            Ballistic Requirements
            Safety risks for V-22 flight testing were not minimized because V-22
            aircraft in use for EMD flight testing have noncrashworthy fuel cells.
            The V-22 fuel cells in the fuselage sponsons for the 4 EMD aircraft, the
            aft fuel cell in the right fuselage sponson for the 12 LRIP aircraft in
            Lots 1 and 2, and all fuel cells in the fuselage sponsons for the 7 LRIP
            aircraft in Lot 3 did not meet crashworthiness standards. Further, the
            V-22 fuel cells in the EMD aircraft and in the LRIP aircraft for Lots 1,
            2, and 3 did not meet ballistic live-fire requirements. The Navy did not
            plan to remedy those conditions for the EMD test aircraft because they
            would be used only for flight testing. The V-22 Program Office issued a
            waiver for the LRIP aircraft to allow noncompliant fuel cells to be
            installed so that aircraft production would not be delayed. For
            subsequent lots, the contractor developed sponson fuel cells that meet
            crashworthiness and ballistic requirements. The V-22 Program Office
            plans to install those compliant fuel cells at an average cost to the
            Government of about $512,000 per aircraft on the 17 remaining LRIP
            aircraft from Lots 1 through 3, but does not plan to install crashworthy
            sponson fuel cells on the V-22 aircraft used for EMD testing because:
                     • a formal safety risk assessment evaluated the fuel cell
                         configuration to be a medium risk and
                     • the benefits of returning to flight outweighed the limited risk
                         reduction attained by retrofitting the aircraft with crashworthy
                         fuel cells.
            However, the formal safety risk assessment was not supported by
            documentation before flight testing resumed and the methodology used
            was flawed. As a result, the safety risk assessment cannot be relied upon
            and the safety risk to aircrews of those EMD test aircraft will not be
            minimized if the aircraft are not retrofitted before further use in flight
            testing.

V-22 Fuel Cell Specifications
     The following provides an overview of the military specifications associated
     with the V-22 fuel cells.

     Navy Specification. Naval Air Systems Command specification document,
     SD 572-1, Revision C, “Detailed Specification for V-22 Engineering and
     Manufacturing Development,” September 13, 1995, establishes the qualification
     requirements for the V-22 to enable the Army, Navy, Air Force, and Marine
     Corps to conduct combat missions requiring vertical and short-field takeoffs and
     landings. The specification states that the fuel cells will be manufactured in
     accordance with the contractor’s specification that defines two types of fuel cell
     construction: nonextensible (high-strength fabric) and extensible (flexible


                                          4
        rubber). The sponson fuel cells will be self-sealing for the lower third and
        inboard wall of the cell. The contractor will establish the effects that weight and
        cost have on the aircraft to determine damage tolerance. When damage
        tolerance requirements cannot be met because of stringent contract weight, cost,
        or other penalties, the contractor is to identify such affected areas and propose
        deviations or waivers of specific requirements, subject to Naval Air Systems
        Command approval.

        Further, the specification states that aircraft crashworthiness should meet the
        requirements of Military Standard 1290, “Light Fixed and Rotary Wing Aircraft
        Crashworthiness,” July 21, 1977, to the maximum extent practical.
        Appendix A, “Test Methods,” of the Standard states that fuel cells will be tested
        in accordance with DoD Military Specification MIL-T-27422B, “Tank, Fuel,
        Crash-Resistant, Aircraft,” February 24, 1970.

        Military Specification. DoD Military Specification MIL-T-27422B allows for
        crashworthy fuel cells that will be either self-sealing or non-self-sealing. A
        crashworthy and self-sealing fuel cell is designed to withstand a 65-foot drop
        without leaking and seal itself if a projectile penetrates the cell wall. Any
        rupture from the drop that results in spillage constitutes failure. Further, all
        gunfire wounds associated with ballistic live-fire testing must self-seal within a
        specified timeframe after being penetrated by an armor-piercing projectile up to
        12.7 millimeters or .50 caliber.

V-22 Fuel Cell Compliance
        The V-22 fuel cells in the fuselage sponsons for the EMD aircraft, the aft fuel
        cell in the right fuselage sponson for the LRIP aircraft in Lots 1 and 2, and all
        of the fuel cells in the fuselage sponsons for the LRIP aircraft in Lot 3 did not
        meet crashworthiness standards. Further, the V-22 fuel cells in the EMD
        aircraft and in the LRIP aircraft in Lots 1, 2, and 3 did not meet ballistic
        requirements.

        V-22 Fuel Cell Development. The contract specifications for the V-22 aircraft
        allow the use of extensible or nonextensible fuel cells. To obtain a significant
        aircraft weight savings, Boeing and the Navy decided to use the extensible fuel
        cell construction in the fuselage sponson fuel cells of the V-22 aircraft, rather
        than the nonextensible fuel cell construction traditionally used in Navy
        helicopters. Boeing initially pursued using an extensible fuel cell developed by
        Fire Proof Tanks, a European company. However, because of the “Buy
        American” restriction of the Berry Amendment,6 Boeing did not use the
        European company to produce the extensible fuel cells. Consequently, Fire
        Proof Tanks licensed International Latex Company to produce the extensible

6
 The Berry Amendment, which Congress has included in various forms in DoD appropriations acts every
year since 1941 and which the National Defense Authorization Act for FY 2002 codified, generally
restricts DoD expenditure of funds for certain articles and items to American goods. The DoD
Appropriations Act for FY 1968 added synthetic fabric and coated synthetic fabric to the Berry
Amendent’s list of protected articles. Fuel cells contain synthetic fabric.


                                                 5
            fuel cells in the United States. Under this licensing agreement, International
            Latex Company manufactured the fuel cells installed on the 21 aircraft for FSD
            through LRIP, Lot 2. Specifically, Boeing used extensible fuel cells in the
            5 FSD aircraft,7 the 4 EMD aircraft, and the 12 LRIP aircraft for Lots 1 and 2.
            For the 7 LRIP aircraft in Lot 3 and the 11 LRIP aircraft in Lot 4, Boeing used
            nonextensible fuel cells manufactured by American Fuel Cell and Coated
            Fabrics Company, and Engineered Fabrics Corporation, respectively.
            Appendix D lists the V-22 aircraft acquired from FSD through LRIP, Lot 4, and
            provides the results of testing performed on the fuel cells in those aircraft.

            Crashworthiness and Ballistic Testing. The 4 EMD aircraft and the 19 LRIP
            aircraft in Lots 1, 2, and 38 had wing fuel cells and breakaway valves that met
            crashworthiness and ballistic specifications. However, the fuel cells in the
            sponsons for the 4 EMD aircraft, the aft fuel cell in the right sponson in the
            12 LRIP aircraft in Lots 1 and 2, and all fuel cells in the sponsons for the
            7 LRIP aircraft in Lot 3 did not meet crashworthiness specifications. Further,
            the forward and aft fuselage sponson fuel cells in the EMD aircraft and the
            LRIP aircraft in Lots 1, 2, and 3 did not meet ballistic specifications. However,
            the sponson fuel cells for the LRIP aircraft in Lot 4 did meet crashworthiness
            and ballistic specifications.

                    Testing for Lots 1 and 2 Extensible Fuel Cells. The forward
            extensible fuel cells in the fuselage sponson used in the LRIP aircraft for Lots 1
            and 2 passed the 65-foot drop test. However, the aft extensible fuel cell in the
            right fuselage sponson used in the Lots 1 and 2 aircraft experienced a 1.5 ounce
            per minute leak at the fittings after the 65-foot drop test. Further, none of the
            fuels cells in the Lots 1 and 2 aircraft passed the ballistic tests. Consequently,
            the contractor requested a waiver of the crashworthiness and ballistic
            qualification requirements for Lots 1, 2, and 3 aircraft for specific fuel cell part
            numbers. Even though the aft extensible fuel cell and all fuel cells in Lots 1 and
            2 did not pass the drop test and the ballistic test, respectively, the V-22 Program
            Manager concluded that the fuel cells were acceptable for flight and approved
            the waiver, thereby accepting noncompliant fuel cells. Appendix E provides a
            copy of the waiver.

            Although the extensible fuel cells were not a contributing factor to the April
            2000 crash, the immediate post-crash fire generated interest in the issue of
            survivability as it related to the sponson fuel cells installed in the V-22. The
            Marine Corps concluded in its July 21, 2000, memorandum (commonly know as
            “JAGMAN Report”), “Investigation Into the Circumstances Surrounding the
            Class “A” Aircraft Mishap Involving an MV-22B Osprey Buno 165436 That
            Occurred on 8 April 2000 at Marana Northwest Regional Airport Near Tucson
            Arizona,” that the excessive forces resulting from gravitational acceleration
            encountered in the crash far exceeded the survivability requirements of the
            aircraft fuel system.



7
    The Navy planned to acquire six FSD aircraft; however, one was never built.
8
    Since the crashes, only 17 of those 19 LRIP aircraft remain.

                                                       6
        Testing for Lot 3 Nonextensible Fuel Cells. For LRIP aircraft in
Lot 3, Boeing subcontracted with a different contractor, American Fuel Cell and
Coated Fabrics Company, for nonextensible cells in the sponson because the
extensible cells used in Lots 1 and 2 experienced cost escalation and
qualification difficulties. Consequently, the waiver for the Lot 3 aircraft no
longer applied because the Lot 3 nonextensible fuel cells manufactured by
American Fuel Cell and Coated Fabrics Company had different part numbers
from the extensible fuel cells produced by International Latex Company for
which the waiver applied. Furthermore, developmental testing indicated that the
nonextensible cells manufactured by American Fuel Cell and Coated Fabrics
Company did not pass the 65-foot drop and ballistic tests. Consequently,
Boeing submitted a request for waiver of the crashworthiness and ballistic
qualification requirements for Lot 3 fuel cells because the previous waiver
applied to different fuel cell part numbers. The Navy did not approve the
waiver. However, even though the Lot 3 nonextensible fuel cells manufactured
by American Fuel Cell and Coated Fabrics Company did not pass the 65-foot
drop and ballistic tests, the Navy considered the nonextensible fuel cells more
crashworthy and ballistically acceptable than the extensible fuel cells used in
Lots 1 and 2. Subsequently, the Navy accepted the Lot 3 nonextensible fuel
cells because those fuel cells met the penetration and tear requirements of the
Military Specification MIL-T-27422B.

        Testing for Lot 4 Nonextensible Fuel Cells. Because the Lot 3 sponson
fuel cells that American Fuel Cell and Coated Fabrics Company produced did
not pass the drop and ballistic tests, Boeing contracted with Engineered Fabrics
Corporation to design a nonextensible fuel cell that would withstand the 65-foot
drop and ballistic tests for Lot 4. During testing in 2001, Boeing determined
that the Lot 4 fuel cells complied with the crashworthiness and ballistic
requirements in SD 572-1, Military Standard 1290, and Military Specification
MIL-T-27422B. Consequently, Boeing plans to install nonextensible fuel cells
manufactured by Engineered Fabrics Corporation in the sponson for the LRIP
aircraft in Lot 4 and subsequent production aircraft.

Rework, Retrofit, Safety Risk, Resumption of Flight Test, Navy Evaluation
Methodology, and Navy Support for Risk Assessment. The Navy plans to
have Boeing retrofit or rework V-22 sponson fuel cells in Lots 1, 2, and 3 with
the compliant nonextensible fuel cells manufactured by Engineered Fabrics
Corporation.

        Rework. Boeing was negotiating with the Navy for an engineering
change proposal to rework the sponson fuel cells used in Lot 3 aircraft because
those aircraft contain nonextensible fuel cells that:

              •   do not comply with military specifications,

              •   do not have an approved waiver for noncompliant fuel cells,
                  and

              •   are installed on aircraft that have not been delivered to the
                  Navy.


                                    7
As of October 2002, the Navy had not approved Boeing’s engineering change
proposal even though it plans to have Boeing rework the sponson fuel cells used
in Lot 3 aircraft and replace those fuel cells with compliant nonextensible fuel
cells. Further, Boeing will install compliant nonextensible fuel cells in aircraft
produced after Lot 3.

        Retrofit. Although the Navy approved a waiver for crashworthiness
and ballistic requirements for the LRIP aircraft in Lots 1 and 2, the Fuel
Containment Branch at the Naval Air Systems Command and Boeing
recommended to the V-22 Program Office that the EMD and Lots 1 and 2
aircraft be retrofitted with compliant nonextensible fuel cells, when they became
available. Boeing also recommended that the aircraft be retrofitted with a larger
access hole for fuel cell installation. In response, the Navy approved an
engineering change proposal submitted by Boeing for retrofitting the sponson
fuel cells in Lots 1 and 2 with compliant fuel cells. However, the Navy did not
approve retrofitting the EMD aircraft because those aircraft would be used only
for flight testing. Consequently, on March 15, 2002, the Deputy Inspector
General requested that the USD(AT&L) determine whether the risk of flying the
EMD aircraft with noncrashworthy fuel cells was acceptable (Appendix F).

On March 28, 2002, the Commander, Naval Air Systems Command issued a
memorandum to the USD(AT&L) (Attachment in Appendix G), stating that the
risk of conducting the flight testing of the EMD test aircraft with noncompliant
sponson fuel cells was acceptable because:

       •   the test aircraft will operate in a controlled and structured
           developmental test environment,

       •   highly trained pilots will fly the test aircraft,

       •   the aircraft will be heavily instrumented and tracked with telemetry,

       •   the test squadron will provide significant oversight of the testing and
           conduct a safety assessment for each test plan and every flight, and

       •   no passengers will be carried on the aircraft.

Further, the Commander stated that his command had conducted a thorough
system safety assessment of the V-22 as part of the V-22 Flight Readiness
Review process, which included the fuel system and existing fuel cells on the
test aircraft.

On April 3, 2002, the USD(AT&L) issued a memorandum (Appendix G) in
response to our request. In his response, USD(AT&L):

       •   agreed with the assessment by the Commander, Naval Air Systems
           Command that the risk of conducting developmental testing with
           noncrashworthy fuel cells was within manageable flight test
           boundaries, and



                                      8
                  •    supported the Commander’s decision to return to developmental
                       testing with aircraft having noncrashworthy fuel cells.

         Further, the USD(AT&L) stated that the benefits of returning the V-22 to flight
         as scheduled to address his other technical concerns outweighed the limited risk
         reduction achieved by retrofitting the aircraft with crashworthy fuel cells that
         meet the 65-foot drop test.

         On April 12, 2002, the V-22 Program Office, when asked, was still unable to
         provide us with documentation to support a system safety risk assessment9 of
         compliant and noncompliant V-22 fuel cells. Boeing had also been unable to
         provide documentation to support the system safety risk assessment concerning
         the use of compliant and noncompliant fuel cells on V-22 aircraft.
         Consequently, we believed that the decision of the USD(AT&L) merited further
         consideration.

         On April 16, 2002, we issued a draft report to the USD(AT&L) recommending
         that he direct the Assistant Secretary of the Navy (Research, Development, and
         Acquisition) to require Boeing to install sponson fuel cells that comply with
         crashworthiness and ballistic standards in all existing V-22 aircraft, including
         the 4 EMD aircraft and the 17 LRIP aircraft from Lots 1 through 3, before
         flying those aircraft.

         On May 6, 2002, the USD(AT&L) issued a memorandum (Appendix H) in
         response to our draft report. The USD(AT&L) stated that:

                  •    all V-22 aircraft, except those used in EMD testing, will have
                       crashworthy and ballistic compliant fuels cells installed in them, and

                  •    a formal risk assessment, documented in a safety action record,
                       evaluated the current fuel cell configuration in the aircraft to be used
                       in EMD testing and assessed the risk as “1D (medium) risk.”

         Further, the USD(AT&L) again concluded that the benefits of returning to flight
         as scheduled, to address other technical concerns, outweighed the limited risk
         reduction attained by retrofitting the aircraft with crashworthy fuel cells.
         However, the safety action record that the USD(AT&L) cited did not document
         and support the basis for assessing the safety risk as “1D (medium) risk”
         (undesirable risk) rather than “high risk” (unacceptable risk), the next higher
         level of safety risk. Consequently, we questioned the rigor of the risk
         assessment.

                Safety Risk. On May 22, 2002, the Inspector General provided the
         USD(AT&L) with a draft information memorandum addressed to the Deputy
         Secretary of Defense. The draft memorandum:

                           •    expressed concerns about flying EMD test aircraft with
                                noncrashworthy fuel cells, and
9
 The system safety risk assessment assigns a risk level to a specific hazard, in this case the fuel cells, in
terms of frequency of occurrence and severity related to injury, property damage, or effect on mission.

                                                      9
              •   recommended that the USD(AT&L) direct the Navy to only
                  use aircraft with crashworthy fuel cells in flight testing or to
                  conduct a formal system safety risk assessment to justify and
                  document that the risk is only “medium.”

At the time of our draft memorandum, the Navy had not restarted its EMD
flight testing of the V-22 aircraft.

On May 28, 2002, the USD(AT&L) issued a memorandum (Appendix I) in
response to our draft information memorandum. The USD(AT&L) stated that
the Navy:

       •   specifically addressed the fuel cell issue at a Flight Readiness Review
           on March 21, 2002, and

       •   assessed the marginal increased risk of using the existing fuel cells on
           EMD aircraft as medium risk compared to the fully compliant fuel
           cells that passed the 65-foot drop test.

Further, the USD(AT&L) stated that, subsequent to his April 3 and May 6,
2002, responses, the Navy formally documented its risk assessment process. He
stated that this formal risk assessment should satisfy the recommendation in the
draft information memorandum to document and provide increased rigor to the
Navy’s assessment.

On May 28, 2002, we received the Navy’s formal system safety risk assessment
of the EMD V-22 noncompliant sponson fuel cells (Appendix J); however, the
Navy did not have documentation to support its risk assessment. After a
preliminary review of the safety risk assessment, we contacted the V-22
Program Office on May 28, 2002, to express our concerns about the relevancy
of the methodology used in the risk assessment and to request documentation
that supported the assumptions made in the risk assessment. The V-22 Program
Office requested that we prepare an e-mail addressing our concerns and related
questions, including our request for supporting documentation.

On May 29, 2002, we analyzed the Navy’s formal system safety risk assessment
and identified three areas of concern, as discussed in Appendix K. Those areas
of concern included the probability of a crash, qualitative considerations, and
data independence and variability.

                Probability of a Crash. The system safety risk assessment did
not base its crash frequency probability on past performance of the V-22 aircraft
or other EMD aircraft. Specifically, the assessment’s crash frequency
probability of 2 to 10 mishaps every 100,000 flight hours was inconsistent with
the number of mishaps experienced and the technical challenges of the V-22.
According to the V-22 Program Office, the V-22 has experienced 4 major
mishaps to date in approximately 5,000 flight hours. Further, the estimate of
2 to 3 mishaps in 100,000 flight hours was based on historic Class A helicopter
mishap rates for the Navy and Marine Corps. However, the risk assessment
codes are based on the risk of aircraft and property damage and personal injury,


                                    10
not just on “Class A” accidents in which a death or serious injury occurred. In
addition, the Program Office used only baseline probability data for helicopters
in its methodology and not baseline probability data that considered airplanes as
well. To be meaningful, the methodology for the system safety risk assessment
should have been revised to include a crash frequency probability based on the
past performance of either the V-22 EMD test or other developmental
fixed-wing or rotary aircraft.

                Qualitative Considerations. The Navy did not plan to
rigorously test the V-22 EMD test aircraft as part of the V-22 flight test
program. The system safety risk assessment stated that:

               •   EMD testing will be conservative,

               •   EMD aircraft will have limited exposure compared to fleet
                   aircraft, and

               •   EMD aircraft will not be transitioned to fleet use.

Because EMD testing is used to demonstrate system capabilities, and V-22 EMD
test aircraft will be used throughout EMD testing, low-risk testing may be
incompatible with making an adequate determination of the aerodynamic
characteristics and operational limitations of the V-22. Further, in December
2000, the Defense Science Board criticized the V-22 Program for severely
reducing the scope of developmental testing.

                Data Independence and Variability. The independence and
variability of probability factors used in the formula for the system safety risk
assessment were questionable. The Navy should have considered dependencies
among factors in making the safety risk level determination. For example, the
“probability that a crash is survivable” and “probability that the crash occurs
over land,” which the Navy showed as independent factors, are dependent
factors. The factors are dependent because the probability of survivability is
related to the environment in which a crash occurs. By presenting two
dependent factors as independent factors, the Navy understated the numeric
value of the safety risk assessment. Further, the assessment did not adequately
address the variability of factors. The calculations in the system safety risk
assessment addressed the variability in the number of crashes. However, the
variability of other factors used in the Navy’s methodology, such as the
“probability that the fuel tank is compromised during a crash condition,” was
not addressed in the risk assessment.

         Resumption of Flight Test. On May 29, 2002, the Navy resumed its
flight testing of the V-22 EMD test aircraft, which had been grounded since
December 2000.

        Navy Evaluation Methodology. On June 7, 2002, the Inspector
General issued a memorandum (Appendix L) to USD(AT&L) in response to his
May 28, 2002, memorandum. The memorandum stated that the system safety
risk assessment raised a fundamental question concerning the evaluation


                                    11
methodology used because it appears that the unique nature of the EMD testing
and the EMD test aircraft were not considered. At least one key factor seemed
to be based on data from operational aircraft rather than EMD aircraft, which
appeared to be a significant methodological error.

Also on June 7, 2002, we sent the V-22 Program Office an e-mail in which we:

       •   expressed our concerns about the support for the methodology used
           by the Navy in assessing safety risks for the V-22 EMD test aircraft;

       •   submitted questions concerning the USD(AT&L) flight decision
           documents, system safety risk assessment supporting documentation
           and methodology, and the V-22 EMD test program; and

       •   requested that the response be provided by June 14, 2002.

        Navy Support for Risk Assessment. On July 12, 2002, the Navy
provided a response (Appendix M) to our e-mail to support its system safety risk
assessment. Our analysis of the Navy response is in Appendix N. Based on the
data that the Navy submitted on July 12, 2002, to support the May 24, 2002,
System Safety Risk Assessment, we again concluded that the methodology used
to make the assessment was flawed. To have been a meaningful risk
assessment, the methodology should have been revised to include a crash
frequency probability based on past performance of either the V-22 EMD test or
other developmental aircraft. Further, the system safety risk assessment model
should have been adjusted to account for the nonindependence between the
“probability that the crash occurs over land” and the “probability that a crash is
survivable.” Using the crash frequency probability data that the Navy did
provide and adjusting for the revised methodology, the safety risk assessment
code would increase from undesirable or a medium safety risk to unacceptable
or high safety risk.

Federal Aviation Administration Evaluation Methodology. On June 19,
2002, we contacted the Federal Aviation Administration (FAA) to determine its
criteria and processes for certifying developmental aircraft. FAA
representatives stated that the FAA does not have criteria or processes for
certifying developmental aircraft. However, it does have criteria and processes
for FAA type certification to determine aircraft airworthiness and for purposes
of public use. The FAA conducts type certification after an aircraft has
undergone developmental testing. Further, the FAA representatives stated that
the FAA does not regulate aircraft development other than ensuring that
developmental flights are conducted in geographic areas that ensure public
safety. However, the FAA does conduct a risk assessment before releasing its
pilots to test aircraft submitted for type certification.

Although the FAA does not regulate system configuration during developmental
testing for commercial aircraft, commercial developmental aircraft have to
meet FAA standards as closely as possible to obtain FAA approval for type
certification. Further, the FAA representatives stated that the FAA was aware
of a commercial tilt-rotor aircraft currently in development, the Bell


                                    12
           Agusta 609, and that during developmental testing, some aspects of the aircraft
           design may not be compliant with regulations. They also stated that the FAA
           routinely flies aircraft with noncompliant designs provided that an assessment
           does not indicate a safety-of-flight issue. Further, they stated that a
           noncrashworthy fuel cell in a developmental aircraft would not necessarily
           preclude the FAA from participating in flight evaluations.

Conclusion
           According to the V-22 Program Office, the Navy plans to spend an average of
           about $512,000 per aircraft to retrofit or rework the sponson fuel cells in the
           17 remaining LRIP aircraft from Lots 1 through 3, with the contractor requiring
           5 to 8 weeks to retrofit or rework each aircraft to make it compliant. However,
           the V-22 Program Office does not plan to install crashworthy sponson fuel cells
           on V-22 aircraft used in EMD testing. If the USD(AT&L) does not require the
           Navy to retrofit the noncompliant extensible fuel cells on the EMD flight test
           aircraft, the crew’s survivability chances under crash conditions may be
           diminished. The increased risk could occur because the survivability of an
           extensible fuel cell is based on the cell’s ability to expand under a crash
           condition and dissipate crash energy through its surrounding structure.
           However, if the fuel cell wall cannot stretch to relieve localized point loads,
           such as if areas of the fuel cell are restrained by the aircraft structure, the fuel
           cell may not be able to resist a puncture or it may tear, or both. Further, the
           probability that the extensible fuel cell may tear is increased over that of
           nonextensible fuel cells because the puncture and tear resistance of the
           extensible fuel cell is considerably less than that of the nonextensible fuel cell
           construction. In addition, if a V-22 aircraft with noncrashworthy fuel cells
           should experience a survivable crash, followed by a post-crash fire, the Navy
           would not have minimized the safety risk to the crew.

           Further, the system safety risk assessment for the noncompliant sponson fuel
           cells on the V-22 EMD test aircraft, which the USD(AT&L) cited in his
           decision to not retrofit EMD test aircraft, should not have been relied upon for
           decision making because it was unsupported and the methodology used was
           flawed. Specifically, the safety risk assessment code would increase from
           undesirable or a medium safety risk to unacceptable or high safety risk if:

                    •   the crash frequency probability was based on the past performance of
                        either the V-22 EMD test aircraft or fixed-wing test aircraft, which
                        was data provided by the Navy,10 and
                    •   the system safety risk assessment model was adjusted to account for
                        the nonindependence between the “probability that the crash occurs
                        over land” and the “probability that a crash is survivable.”



10
     Appendix N, Issue 3, Pages 53 and 54.


                                                13
Recommendations and Management Comments
    We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

          1. Reconsider his decision to fly the V-22 engineering and
    manufacturing development test aircraft without sponson fuel cells that
    comply with crashworthiness standards.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics stated that he has again concluded that the benefits of
    continuing to fly to address his other technical concerns outweighed the limited
    risk reduction attained by stopping the V-22 flight test program and retrofitting
    fuel cells with greater crashworthiness on the four EMD-only aircraft. For the
    complete text of the Under Secretary’s comments, see the Management
    Comments section of this report.

           2. Establish procedures to ensure that system safety risk assessments
    use a relevant methodology and are fully supported and documented.

    Management Comments. The Under Secretary of Defense for Acquisition,
    Technology, and Logistics agreed that the Military Departments should use
    relevant methodology in their risk assessment procedures, including calculations
    of risk probability, and that risk assessments should be fully supported and
    documented. Further, the Under Secretary stated that his office will ensure that
    the Military Departments’ safety organizations review their procedures and
    update them, as appropriate.




                                       14
Appendix A. Scope and Methodology
   We reviewed documentation dated from March 1986 to August 2002. To
   accomplish the audit objective, we:

          •   reviewed developmental test reports concerning the V-22 fuel cells;

          •   reviewed fuel cell test reports by the Commander, Operational Test
              and Evaluation Force and the Director, Operational Test and
              Evaluation;

          •   discussed V-22 fuel cell test and evaluation results with personnel in
              the Office of the Director, Operational Test and Evaluation; the V-22
              Program Office; and at Boeing;

          •   discussed the V-22 development and production contracts with the
              Defense Contract Management Agency, the V-22 Program Office,
              and Boeing;

          •   discussed V-22 funding with personnel in the V-22 Program Office;
              and

          •   reviewed the Navy’s formal system safety risk assessment of the
              EMD V-22 noncompliant sponson fuel cells

   We performed this audit from January through August 2002 in accordance with
   generally accepted government auditing standards. We did not review the
   management control program because the audit was conducted in response to
   allegations referred to us by the Commandant of the Marine Corps; therefore,
   the scope was limited to the specific allegations.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in the DoD. This report provides coverage
   of the DoD weapon systems acquisition high-risk area.

   Use of Computer-Processed Data. We did not rely on computer-processed
   data to perform this audit.

   Use of Technical Assistance. An operations research analyst and a mechanical
   engineer from the Quantitative Methods Division and the Technical Assessment
   Division, respectively, Office of the Assistant Inspector General for Auditing of
   the Department of Defense, assisted the auditors in reviewing fuel-cell test
   results and the system safety risk assessment for the V-22.




                                      15
Prior Coverage
    During the last 5 years, the General Accounting Office (GAO) and the Inspector
    General of the Department of Defense (IG DoD) have issued reports that
    reference DoD test waivers and limitations. Unrestricted General Accounting
    Office and Inspector General of the Department of Defense reports can be
    accessed at http://www.gao.gov and http://www.dodig.osd.mil/audit/reports,
    respectively.

    General Accounting Office
           GAO Report No. NSIAD-98-13, “Navy Aviation: V-22 Cost and
           Capability to Meet Requirements are yet to be Determined,”
           October 1997

    Inspector General of the Department of Defense
           IG DoD Report on the Investigation of the Alleged Deletion/Falsification
           of Information from the MV-22 Osprey Aircraft Official Reports,
           August 19, 2002

           IG DoD Report No. D-2000-174, “V-22 Osprey Joint Advanced Vertical
           Aircraft,” August 15, 2000




                                      16
Appendix B. Results of Allegations’ Review
   Of the four allegations concerning the V-22 fuel cells, we partially substantiated
   three, and did not substantiate one.

   Allegation 1: The fuel cell installed in the V-22 was not able to withstand
   the required 10g (gravitational acceleration) impact.

   Partially Substantiated. Although we were unable to substantiate the existence
   of a 10g impact requirement for any of the V-22 fuel cells, we did substantiate
   that fuel cells in the sponsons for the EMD aircraft, the aft fuel cell in the right
   fuselage sponson for the LRIP aircraft in Lots 1 and 2, and all fuel cells in the
   fuselage sponsons for LRIP aircraft in Lot 3 did not pass the 65-foot drop test as
   required by Military Specification MIL-T-27422B, “Tank, Fuel,
   Crash-Resistant, Aircraft,” February 24, 1970. Subsequently, the contractor
   developed a fuel cell that met the specification requirements. Consequently, the
   Navy plans to have Boeing retrofit the LRIP aircraft in Lots 1 and 2 and rework
   the LRIP aircraft in Lot 3 with the compliant fuel cell.

   Allegation 2: A fuel cell that could withstand the drop test was developed;
   however, it was not installed in the V-22 because of structural issues.
   Specifically, to install a fuel cell that would withstand the drop test, an
   access panel would have to be cut, which would affect the structural
   integrity of the stub wing. To compensate for the access panel, the aircraft
   structure would have to be modified thereby increasing the aircraft’s
   weight.

   Unsubstantiated. We were unable to substantiate that fuel cells meeting the
   drop test were not installed because of structural issues that required cutting an
   access panel. Instead, we determined that the Navy plans to have Boeing
   retrofit the LRIP, Lots 1 and 2, sponsons with nonextensible fuel cells, which
   meet the drop test and ballistic requirements. To install those nonextensible fuel
   cells, Boeing will have to modify the sponson access holes to accept the
   compliant nonextensible fuel cells. Because Boeing manufactured the sponsons
   for LRIP aircraft in Lot 3 to accept nonextensible fuel cells, the access holes on
   those sponsons do not require modification to install compliant nonextensible
   fuel cells.

   Allegation 3: The designs of the CH-46E Sea Knight and the CH-53D Sea
   Stallion, which transport Marines, supplies, and equipment, incorporate
   fuel cells that break away on impact to prevent fires and explosions.
   However, the V-22 design incorporates fuel cells that will burst and flood
   the cabin with fuel, dramatically increasing the likelihood of a fire or an
   explosion, or both.

   Partially Substantiated. We were unable to substantiate that the CH-46E Sea
   Knight and the CH-53D Sea Stallion incorporate fuel cells that break away on
   impact. However, we were able to substantiate that the V-22 design initially


                                        17
            incorporated a sponson fuel tank structure and cabin wall in the full-scale
            development aircraft that could crack and allow fuel to enter the cabin as a
            result of ballistic live-fire impact.

                    Breakaway Fuel Cells. According to the CH-46E Sea Knight and
            CH-53D Sea Stallion program offices, the designs of those two helicopters did
            not incorporate fuel cells that break away on impact. However, the fuel systems
            for the two helicopters did incorporate breakaway valves, which break away and
            close on crash impact. The V-22 fuel system also includes similar breakaway
            valves.

                    V-22 Fuel Cell Design. Ballistic live-fire tests of a flyable, full-scale
            development aircraft yielded cracking damage in the sponson fuel tank
            structure11 and cabin wall that was significantly greater than expected. The
            damage was accompanied by fires under the fuselage floor and within the cargo
            and passenger areas of the fuselage. The damage resulted from the impact of an
            armor-piercing incendiary projectile. Subsequently, the sponson was redesigned
            and retested to make it more survivable. The Navy plans to have Boeing retrofit
            LRIP aircraft in Lots 1 and 2 and rework the Lot 3 aircraft with fuel cells that
            meet ballistic test requirements. Further, Boeing will install the compliant fuel
            cells in the LRIP aircraft in Lot 4 and future aircraft.

            Allegation 4: At no time has the V-22 fuel cell passed the drop test.
            Consequently, the V-22 fuel cell standards were lowered to incorporate a
            cell design that would work and still maintain a weight savings.

            Partially substantiated. Although we were unable to substantiate that the V-22
            fuel cells had never passed the drop test, we did substantiate that the V-22 fuel
            cells in the sponsons for the EMD aircraft, the aft fuel cell in the right fuselage
            sponson for the LRIP aircraft in Lots 1 and 2, and all fuel cells in the fuselage
            sponsons for the LRIP aircraft in Lot 3 did not withstand the 65-foot drop test.
            However, the V-22 forward fuel cells in the sponson for the LRIP aircraft in
            Lots 1 and 2 passed the 65-foot drop test.

            We were not able to substantiate that the V-22 fuel cell standards were lowered
            or made less stringent to incorporate a cell design that would work and still
            maintain a weight savings. However, for Lots 1, 2, and 3, the Navy approved a
            waiver request for relief from the drop test and ballistic specifications for the
            extensible sponson fuel cells, which Boeing originally selected for the aircraft
            because of their reduced weight. Subsequently, Boeing developed sponson fuel
            cells that met the drop test requirements. Consequently, the Navy plans to have
            Boeing retrofit LRIP aircraft in Lots 1 and 2 and rework the Lot 3 aircraft with
            the compliant fuel cell. Further, Boeing will install the compliant fuels cells in
            the LRIP aircraft in Lot 4 and future aircraft.


11
     The fuel cells are located in the sponson outside the cabin walls.




                                                        18
Appendix C. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; III, programs not meeting the criteria for acquisition categories I, IA,
   or II; and IV, programs designated as such by the Army, Navy, and Marine
   Corps.

   Acquisition Category ID. An Acquisition Category ID program is a major
   Defense acquisition program for which the milestone decision authority is the
   Under Secretary of Defense for Acquisition, Technology, and Logistics.

   Acquisition Program Baseline. An acquisition program baseline is a document
   that contains the cost, schedule, and performance parameters for a program.

   Allegation. An allegation is an assertion, claim, declaration, or statement that
   is made with or without supporting evidence and questions the existence of one
   or more facts.

   Ballistic Live-Fire Test. To meet ballistic live-fire test requirements, the fuel
   cells must be self-sealing when penetrated by a 12.7 millimeter or .50 caliber
   armor-piercing projectile.

   Class A Mishap. A Class A mishap is an accident in which a death or serious
   injury occurred.

   Crashworthy Test. To meet the crashworthy test requirements, the fuel cell
   must be able to withstand a drop test of 65 feet when filled with water.

   Developmental Test and Evaluation. Developmental test and evaluation is any
   testing used to assist in the development and maturation of products, product
   elements, or manufacturing or support processes. It is also any engineering-type
   test used to verify status of technical progress, verify that design risks are
   minimized, substantiate achievement of contract technical performance, and certify
   readiness for initial operational testing. Development tests generally require
   instrumentation and measurements and are accomplished by engineers, technicians,
   or soldier operator-maintainer test personnel in a controlled environment to
   facilitate failure analysis.

   Engineering Change Proposal. An engineering change proposal is a proposal to
   the responsible authority recommending that a change to an original item of
   equipment be considered, and the design or engineering change be incorporated
   into the article to modify, add to, delete, or supersede original parts.

   Engineering and Manufacturing Development. The engineering and
   manufacturing development phase of the acquisition process is to translate the
   most promising design approach into a stable, interoperable, producible,

                                       19
supportable, and cost-effective design; to validate the manufacturing process or
production process; and to demonstrate system capabilities through testing.
Low-rate initial production usually occurs toward the end of the engineering and
manufacturing development phase.

Extensible Fuel Cell. An extensible fuel cell is made of flexible material that
expands to dissipate crash energy.

Full-Rate Production Decision. A full-rate production decision is a review
normally conducted at the conclusion of low-rate initial production that
authorizes entry into full-rate production and deployment.

Full-Scale Development. Full-scale development was an acquisition phase,
which changed to the engineering and manufacturing development phase in the
early 1990s. See the term engineering and manufacturing development for a
definition of that phase.

Fuselage. A fuselage is the central body portion of an aircraft designed to
accommodate the crew and passengers or cargo.

Low-Rate Initial Production. Low-rate initial production establishes an initial
production base for the system, permits an orderly production rate increase
sufficient to lead to a smooth transition to full-rate production, and provides
production representative articles for initial operational test and evaluation and
live-fire testing. This production effort concludes with a full-rate production
decision review to authorize full-rate production and deployment.

Major Defense Acquisition Program. A major defense acquisition program is
a program that the Under Secretary of Defense for Acquisition, Technology,
and Logistics estimates will require an eventual expenditure for research,
development, test, and evaluation of more than $365 million (FY 2000 constant
dollars) or procurement of more than $2.19 billion (FY 2000 constant dollars),
or one designated by the Under Secretary to be a major defense acquisition
program.

Milestone Decision Authority. A milestone decision authority is the individual
designated to approve entry of an acquisition program into the next acquisition
phase.

Nonextensible Fuel Cell. A nonextensible fuel cell is made of high-strength
flexible material that is able to absorb crash energy with minimal expansion.

Operational Test and Evaluation. Operational test and evaluation is the field
test, under realistic conditions, of any item or key component of weapons,
equipment, or munitions for the purpose of determining the effectiveness and
suitability of the weapons, equipment, or munitions for use in combat by typical
military users; and the evaluation of the results of such tests.




                                    20
Program. A program is an acquisition effort funded by research, development,
test and evaluation or procurement appropriations, or both, with the express
objective of providing a new or improved capability in response to a stated
mission need or deficiency.

Retrofit. Retrofit is a modification of a configuration item to incorporate
changes made in later production items.

Rework. Rework is any correction of defective work, either before, during, or
after inspection.

Safety Action Record. A safety action record is a summary of a single,
identified hazard, including the chronological history of a hazard’s identification
and resolution. A safety action record is generated for hazards having the
highest risk and is not the same as a system safety risk assessment.

Selected Acquisition Report. A selected acquisition report is a standard,
comprehensive, summary status report of a major defense acquisition program,
which is required for periodic submission to Congress. The report includes key
cost, schedule, and technical information.

Sponson. A sponson is a projection from the side of the aircraft that holds the fuel
cells and the landing gear.

System Safety Risk Assessment. A system safety risk assessment assigns a
risk level to a specific hazard, in this case the fuel cells, in terms of frequency
of occurrence and severity related to injury, property damage, or effect on
mission.

Type Certification. Type certification is a process conducted by the Federal
Aviation Administration to determine the airworthiness of a specific type of aircraft.

Vortex Ring State. Vortex ring state, also known as power settling, occurs
when a very slow-flying helicopter or tilt-rotor in helicopter mode begins to
descend into the disturbed air directly under its rotor system. This disturbed air
is recirculated through the rotor system and results in a decrease in lift provided
by that rotor disk. As rates of descent significantly increase, the pilot's
instinctive reaction is to add power in an attempt to arrest his sink rate.
However, when he adds power, he creates a greater volume of unstable air
under the aircraft, which causes the rotorcraft to descend at an even faster rate.

Waiver. A waiver is a written authorization to accept a configuration item or
other designated item, which, during production or after having been submitted
for inspection, is found to depart from specified requirements, but nevertheless
is considered suitable “as is” or after rework by an approved method.




                                     21
Appendix E. Fuel Cell Waiver Request and
            Approval




                      24
25
Appendix F. Office of the Inspector General of the
            Department of Defense Memorandum
            Concerning Noncrashworthy Fuel Cells




                         26
Appendix G. Under Secretary of Defense for
            Acquisition, Technology, and Logistics
            Memorandum Concerning
            Noncrashworthy Fuel Cells




                         27
28
Appendix H. Under Secretary of Defense for
            Acquisition, Technology, and Logistics
            Memorandum Concerning Installation of
            V-22 Fuel Cells




                        29
Appendix I. Under Secretary of Defense for
            Acquisition, Technology, and Logistics
            Memorandum Concerning Safety of V-22
            Fuel Cells




                        30
Appendix J. System Safety Risk Assessment of
            Engineering and Manufacturing
            Development V-22 Noncompliant Sponson
            Fuel Cells




                       31
32
33
34
35
36
37
38
Appendix K. Initial Analysis of V-22 System
            Safety Risk Assessment
    Our initial analysis of the Navy’s formal system safety risk assessment of the
    engineering and manufacturing development (EMD) V-22 noncompliant sponson
    fuel cells (Appendix J) and our concerns about that risk assessment follow. We
    conducted the analysis on May 29, 2002. To correlate our concerns, we
    include, as applicable, the heading from the system safety risk assessment in
    Appendix J and, in parentheses, the applicable report page number.

Navy Risk Assessment Guidance
    Naval Air Systems Command Instruction 5100.11, “Research and Engineering
    Technical Review of Risk Process and Procedures for Processing Grounding
    Bulletins,” September 3, 1999, provides guidance on engineering technical
    review of risk when coordinating an engineering recommendation involving
    potential grounding of aircraft. The Instruction states that a key element in
    understanding and managing a specific hazard is a risk assessment of the
    potential hazard. The risk assessment assigns a risk level to the hazard and is
    expressed in terms related to the operation of the platform or system in question.
    The risk level is a function of the:

           •   severity of the hazard, including catastrophic, critical, marginal, and
               negligible; and

           •   frequency of occurrence of the hazard, including frequent, probable,
               occasional, remote, and improbable.

    The combination of those two factors form the hazard environment that must be
    assessed. Severity is expressed in terms of degree of injury, property damage,
    or effect on mission. Frequency is expressed either in qualitative terms, such as
    remote, or quantitative terms, such as probability of occurrence or failure rate;
    for example, catastrophic-remote or 1D. Once those two parameters are
    defined, a system safety risk analysis matrix is used to identify potentially
    unsafe conditions. The resultant four risk levels in the matrix are:

           •   unacceptable or a high safety risk;

           •   undesirable or a medium safety risk;

           •   acceptable with review or low safety risk; and

           •   acceptable without review or very low safety risk.

    Although use of the matrix is inherently subjective, the process accepts data
    from the evaluation of inputs supplied by flight test results, original equipment


                                        39
    manufacturers, analysis, and laboratory results from engineering investigations.
    Often, suitable data is not available to quantify frequency or severity; therefore,
    a subjective analysis is required. In those cases, the matrix still provides a
    consistent framework and a systematic approach for assessing and managing
    risk.

Concerns With V-22 EMD System Safety Risk Assessment
    Hazard Classification. (Page 32) The Navy assigned a safety risk assessment
    code of 1D catastrophic-remote (undesirable or a medium safety risk) for the
    fuel cells installed in the V-22 engineering and manufacturing development
    (EMD) test aircraft. The next higher code would have been 1C
    catastrophic-occasional (unacceptable or high safety risk).

    Probability of a Crash: (2-10/100,000 flight hours). (Page 33) The
    probability factors associated with a crash do not appear to be reasonable. The
    system safety risk assessment did not base its crash frequency probability on
    past performance of the V-22 aircraft or other EMD aircraft. Specifically:

           •   The assessment’s crash frequency probability of 2 to 10 mishaps
               every 100,000 flight hours seems inconsistent with the number of
               mishaps experienced and the technical challenges of the V-22.
               According to the V-22 Program Office, the V-22 has experienced
               4 major crashes to date in approximately 5,000 flight hours.

           •   The estimate of 2 to 3 mishaps in 100,000 flight hours was based
               upon historic Class A helicopter mishap rates for the Navy and
               Marine Corps. However, the risk assessment codes in Naval Air
               Systems Command Instruction 5100.11 are based on the risk of
               aircraft and property damage and personal injury, not just on
               “Class A” accidents in which a death or serious injury occurred.

           •   Crash frequency data from other EMD aircraft would have been
               more representative than crash frequency data from operational
               aircraft.

           •   In making its probability projections, the Navy used only baseline
               probability data for helicopters and not baseline probability data that
               considered airplanes as well as helicopters. Specifically, the V-22
               flies like an airplane and takes off and lands like a helicopter; but the
               V-22 cannot autorotate and land in the event of an engine failure,
               according to the Director, Operational Test and Evaluation Report,
               “Combined Operational Test and Evaluation and Live Fire Test and
               Evaluation Report on the V-22 Osprey,” November 17, 2000.
               However, the V-22 Program Office indicated that the V-22 has
               limited ability to autorotate.




                                        40
Qualitative Considerations. (Pages 32 and 33) The Navy did not plan to
rigorously test the V-22 EMD test aircraft as part of the V-22 flight test
program. The system safety risk assessment stated that:

       •   EMD testing will be conservative,

       •   EMD aircraft will have limited exposure compared to fleet aircraft,
           and

       •   EMD aircraft will not be transitioned to fleet use.

Because EMD testing is used to demonstrate system capabilities, and V-22 EMD
test aircraft will be used throughout EMD testing, low-risk testing may be
incompatible with making an adequate determination of the aerodynamic
characteristics and operational limitations of the V-22. Further, in December
2000, the Defense Science Board criticized the V-22 Program for severely
reducing the scope of developmental testing.

Data Independence and Variability. The independence and variability of
probability factors used in the system safety risk assessment are questionable.

       •   Probability That a Crash Is Survivable and Probability That the
           Crash Occurs Over Land. (Page 33) Factors in the hazardous
           probability calculations may not be independent. For example, the
           “probability that a crash is survivable” and “probability that the
           crash occurs over land” may be dependent. The Navy should have
           considered dependencies among factors in making the safety risk
           level determination.

       •   Probability That the Fuel Tank Is Compromised During a Crash
           Condition. (Pages 33 and 34) Calculations in the Navy’s system
           safety risk assessment addressed the variability in the number of
           crashes. However, the variability of other factors, such as the
           “probability that the fuel tank is compromised during a crash
           condition,” was not addressed in the risk assessment.

Conclusion. If the crash frequency probability was based on the past
performance of either the V-22 or fixed-wing EMD aircraft, which the Navy did
provide, and the system safety risk assessment model was adjusted to account
for the nonindependence between the “probability that the crash occurs over
land” and the “probability that a crash is survivable,” the safety risk assessment
code would increase from undesirable or a medium safety risk to unacceptable
or high safety risk. Accordingly, we have concerns with the methodology,
reasonableness, and support of the probability factors used in the system safety
risk assessment for the noncompliant sponson fuel cells on the V-22 EMD
aircraft.




                                    41
Appendix L. Office of the Inspector General of the
            Department of Defense Memorandum
            Concerning Safety of V-22 Aircraft




                          42
Appendix M. Navy Response to Questions on the
            System Safety Risk Assessment for
            V-22 Fuel Cells




                      43
44
45
46
47
48
49
50
51
Appendix N. Analysis of the Navy Response to
            Issues With the System Safety Risk
            Assessment for V-22 Fuel Cells
    The V-22 Program Office provided comments in response to issues we had with
    the System Safety Risk Assessment for the V-22 fuel cells (Appendix M). The
    issues include the USD(AT&L) flight decision documents, safety assessment
    data and methodology, and the V-22 test program. The following discusses
    those issues by number; the Navy’s response; and the audit response, as
    applicable.

USD(AT&L) Flight Decision Documents
    1. Provide a copy of the sponson fuel cell SAR [safety action record] report
    to include all entries made as of May 6, 2002 (SAR report cut off date), and
    all entries as of date this Email was received.

    Navy Response. The V-22 Program Office stated that the safety action record
    for the V-22 sponson fuel cell is proprietary to Bell-Boeing and will be
    forwarded by separate correspondence when Bell-Boeing has approved it for
    release.

    Audit Response. On July 22, 2002, we received the safety action record. The
    safety action record did not document and support the basis for assessing the
    safety risk as “1D (medium) risk” (undesirable risk) rather than “high risk”
    (unacceptable risk), the next higher level of safety risk.

    2. Provide Flight Readiness Review, March 21, 2002, briefings, results and
    any other documentation available used to support the review or to record
    the review results. Provide a list of review attendees. Also include any
    documentation or assessments to support the contention that the safety of
    the EMD [engineering and manufacturing development] aircraft sponson
    fuel cells was addressed.

    Navy Response. The V-22 Program Office stated that nobody documented the
    discussion at the March 21, 2002, Flight Readiness Review concerning the
    safety of the EMD aircraft with respect to the noncompliant fuel cells.
    However, the V-22 Program Office stated that Rear Admiral Heely, Assistant
    Commander, Naval Air Systems Command for Research and Engineering,
    personally briefed Vice Admiral Dyer, Commander, Naval Air Systems
    Command; and Lieutenant General Reynolds, Commander, Aeronautical
    Systems Center, Air Force Materiel Command, concerning the risks associated
    with the fuel cells. Vice Admiral Dyer and Lieutenant General Reynolds
    concurred with the assessment, as briefed, and no further discussion was
    required.



                                      52
    Audit Response. In his May 28, 2002, memorandum, the USD(AT&L) stated
    that the Navy specifically addressed the fuel cell issue at a Flight Readiness
    Review on March 21, 2002. However, without documentation from the Flight
    Readiness Review, we cannot verify from an audit perspective that the safety of
    the EMD aircraft sponson fuel cells was specifically addressed at the review.

Safety Assessment Data and Methodology
    3. Was actual V-22 crash history and/or developmental aircraft accident
    history factored into the “probability of a crash” factor? If yes, how was it
    done? If no, please explain why not?

    Navy Response. The V-22 Program Office response addressed the probability
    of a crash and aircraft mishap rates.

            Probability of a Crash. The V-22 Program Office stated that actual
    V-22 crash history and developmental aircraft accident history were not factored
    into the “probability of a crash” factor because the risk assessment attempts to
    take into account a “reasonable” worst case of 10 mishaps per 100,000 flight
    hours or 1 mishap every 10,000 flight hours. Further, the Program Office
    stated that the EMD aircraft have flown nearly 2,000 hours without a mishap
    and noted that the Flight Readiness Review concurred that the expected level of
    risk for the V-22 EMD test aircraft returning to flight was medium. The
    Program Office also stated that the medium level of risk was based on the
    efforts conducted over the 14-month down period to assess and improve overall
    safety.

            Aircraft Mishap Rates. The V-22 Program Office stated that the V-22
    aircraft have flown a total of 4,947 hours during full-scale development, EMD,
    and low-rate initial production developmental aircraft testing and have
    experienced four Class A mishaps as follows:

                  •   for 1,184 flight hours of full-scale development aircraft
                      testing, the V-22 experienced two mishaps involving
                      Aircraft Build Nos. 4 and 5;

                  •   for 1,894 flight hours of EMD aircraft testing, the V-22
                      experienced no mishaps; and

                  •   for 1,869 flight hours of low-rate initial production aircraft
                      testing, the V-22 experienced two mishaps involving Aircraft
                      Build Nos. 14 and 18.

    The V-22 Program Office provided details concerning the four Class A mishaps
    and noted that the impact forces were not survivable for all of the mishaps
    except Aircraft Build No. 5. Further, the Program Office stated that
    developmental aircraft generally have very few flight hours compared to the
    number of flight hours the aircraft accumulates during deployment; therefore,
    mishap rates are generally higher for developmental aircraft. During


                                       53
developmental and operational testing, the F-14A, the F-16A, and the F-18A/B
experienced 79, 50, 61 mishaps per 100,000 flight hours, respectively. The
Program Office believes that using mishap rates incurred on like aircraft in the
fleet that have accumulated significant flight hours, combined with the use of
conservative factors, provide a more realistic assessment.

The V-22 Program Office also stated that risk assessments are a tool to evaluate
risk using relevant data when available; however, qualitative factors or
judgment calls are sometimes the only way to induce realism in the risk
projection. The Program Office also stated that DoD Military Standard 882D,
“Standard Practice for System Safety,” February 10, 2000, provides that
assigning a quantitative mishap probability to a potential design or procedural
hazard is generally not possible early in the design process. At that stage,
qualitative mishap probability may be derived from research, analysis, and
evaluation of historical safety data from similar systems.

Audit Response. The Navy did not provide a reasonable analysis to support
how it extrapolated from the “efforts conducted” that the expected level of risk
for the V-22 EMD test aircraft returning to flight was medium. However, the
Navy did provide mishap rate data for airplanes, but not for EMD helicopters to
correlate with the V-22’s unique operational characteristics. Further, the lowest
mishap rate the Navy reported for fixed-wing aircraft was 50 mishaps per
100,000 flight hours for the F-16A, which does not support the “worst case”
assumption of 2 to 10 mishaps per 100,000 flight hours for the V-22. In
addition, whether the impact forces were not survivable for all of the mishaps
except Aircraft Build No. 5 is not relevant to the “probability of crash”
assumption in the system safety risk assessment (Appendix J, page 32). Instead,
the survivability of the mishaps should be included with the “probability that
crash is survivable” assumption.

Although the Navy cited DoD Military Standard 882D guidance on assigning
mishap probability, it did not use crash history in deriving its “probability of a
crash” risk factor. Using a V-22 mishap rate of one mishap about every
1,200 flight hours (4 mishaps in 4,947 flight hours), equates to a mishap rate of
about 83 mishaps per 100,000 flight hours. Therefore, the projection of
10 mishaps per 100,000 flight hours for the V-22 EMD test aircraft was not
supportable in the Navy’s response as evidenced by the V-22’s actual mishap
history and the mishap history for the F-14A, the F-16A, and the F-18A/B.

4. Because the V-22 configuration and capabilities are unique, please
explain why you used historical helicopter survivability experience when
establishing the “probability that a [V-22] crash is survivable” rather than
historical airplane survivability experience?

Navy Response. The V-22 Program Office stated that historical helicopter
survivability experience was used rather than historical airplane survivability
experience because the V-22, as a tilt-rotor aircraft, incorporates crashworthy
features in critical subsystems. Further, the Program Office stated that transport
fixed-wing aircraft are not designed to the same stringent requirements as those
imposed on the V-22 and on all new light-fixed and rotary-wing military


                                    54
aircraft. The Program Office also stated that high-performance, fixed-wing
aircraft are equipped with ejection seats and do not share the same
crashworthiness features or operate in the same environment. Similarly, large
multi-engine transport aircraft do not employ the same crashworthiness features.
Instead, those aircraft rely more on large fuselage deformation for energy
reduction.

Audit Response. The Navy’s explanation for using historical helicopter
survivability experience when establishing the “probability that a crash is
survivable” rather than historical airplane survivability experience seems
reasonable.

5. What was the source of the helicopter data used for the safety
assessment, what was the population and population size the data was
developed from, and what timeframe does the data represent? Did the data
include helicopters without the capability to make an autorotation landing
in the event of engine failure? Please provide a copy of the data used.

Navy Response. The V-22 Program Office stated that autorotations are
performed in response to total power loss, resulting from dual engine failures in
Navy and Marine Corp helicopters, including the V-22; or in response to
tail-rotor failures in conventional helicopters for which the vast majority of
autorotations occur. Because the V-22 does not have a tail rotor, the need for
autorotation capability is reduced. For its mishap rate, the V-22 Program Office
provided a graph, “Naval Safety Center Data,” as the data source. In addition,
the Program Office listed four data sources to support the “Naval Safety Center
Data” assessment.

Audit Response. The Navy did not provide the population and population size
for the “Naval Safety Center Data” and copies of support data. Further, the
times given in the data sources were unclear about whether they were
timeframes of data or publication dates of studies.

6. What was the source for the data used to develop the “probability that a
crash is survivable” factor, what was the population and population size the
data was developed from, and what timeframe does the data represent.
Why was only Class A mishaps represented by this factor? Please provide a
copy of the data used.

Navy Response. The V-22 Program Office provided data sources from the
Helicopter Flight Mishap Analysis (CY 1972-1981) and Class A mishap data
from 1980 to 1997 to support nonsurvivability rates of 23 and 27 percent,
respectively, for its “probability that a crash is survivable” factor. The V-22
Program Office stated that the Navy risk assessment assumed that the
survivability rate was 50 percent; however, if the assessment were adjusted to
show a survivability rate of 75 percent, the risk level for the hazardous
condition would remain a “D” or remote chance of occurrence.




                                    55
Audit Response. The data that the Navy provided supported 75 percent rather
than 50 percent as the value for the “probability that a crash is survivable”
factor.

7. What was the source for the data that was used to develop the
“probability that a crash occurs over land” factor, what was the population
and population size the data was developed from, and what timeframe does
the data represent? Please provide a copy of the data used.

Navy Response. The V-22 Program Office stated that the V-22 is a
replacement for the H-46 helicopter and provided 4 sources for data to support
the “probability that a crash occurs over land” factor of 50 percent. The
4 sources showed the probabilities of water crashes as 47 percent, 57 percent,
55 percent, and 62 percent, respectively.

Audit Response. The source 1 and 2 data were old, 1973 through 1984 and
1972 though 1981, respectively; and the source 3 data were unclear as to
whether 55 percent of the helicopter mishaps occurred over water. Further, the
source 4 data were not for EMD aircraft and generally supported the
“probability of crash over land” factor equating to 50 percent.

8. Please provide evidence that the factors “probability that a crash is
survivable” and “probability that a crash occurs over land” are actually
mathematically independent factors.

Navy Response. The V-22 Program office stated that data is not currently
available to show that the “probability that a crash is survivable” and the
“probability that a crash occurs over land” are totally independent. Further, the
Program Office stated that some degree of statistical dependence may exist;
however, that degree is unknown. In the V-22 mishaps, three were land crashes
and one was survivable. The V-22 Program Office also stated that fuel cell
crashworthiness would not have been a factor in 75 percent (3 out of 4) of the
mishaps because impact loads far exceeded the survivable mishap threshold for
humans. Further, the Program Office stated that source data indicates that
20 percent (32 divided by 157) of water mishaps and 35 percent (44 divided by
127) of land mishaps were considered nonsurvivable.

Audit Response. The Navy admitted that probabilities for crashing over land
and survivability of crash were not totally independent. Instead of using
2 separate factors in the current safety risk assessment model and the admitted
relationship between crashing over land and survivability of crash, the Navy
should have used one combined factor “probability that crash is over land and
survivable,” equaling approximately 29 percent [(127 - 44) ÷ (127 + 157) =
.292]. By presenting two dependent factors as independent factors, the Navy
understated the numeric value of the safety risk assessment.

9. What was the source for the data that was used to develop the
“probability that the fuel tank is compromised during a crash condition”
factor and what was the population and population size the data was
developed from, and what timeframe does the data represent? Please


                                   56
provide a copy of the data used. You use a “probability that the fuel tank
is compromised during a crash condition” factor of 50 percent, what would
be the factor for sponson fuel cells that met the EMD aircraft specification,
and how did you adjust that factor to address noncompliant fuel cells?

Navy Response. The V-22 Program Office provided data that indicated that a
fully compliant tank may be compromised during a crash condition from 10 to
20 percent. The Program Office stated that the 50 percent factor presented in
the equation used for the V-22 safety risk assessment addresses the fact that the
tank is not a fully compliant tank. The probability that an extensible tank is
compromised would be a function of the magnitude of the crash. The V-22
Program Office conservatively assumed that the extensible fuel cells would
encounter fuel leakage as a result of impact velocities above 24 feet per second.
Further, the Program Office assumed, in conjunction with historically support,
that approximately 50 percent of the survivable mishaps will have an impact
velocity of greater than 24 feet per second.

The V-22 Program Office provided a graph, “Vertical Velocity Change,” with
data from 1969 through 1981 that referred to survivable crashes and stated that
the graph suggests that only about 30 percent of the survivable mishaps, instead
of 50 percent used in the risk assessment calculations, occur with vertical
velocities of about 24 feet per second. Further, the Program Office stated that,
at less than 24 feet per second, the landing gear controls the deceleration.
However, at greater than 24 feet per second, the fuselage deformation controls
deceleration, which is somewhat unpredictable, but that does not mean that the
fuel tank would fail. The Program Office also stated that the assumption that
the fuel tank will fail is conservative and that the percentage of survivable
mishaps with vertical impact velocities greater than 24 feet per second is also
conservative. Further, the Program Office stated that the Aircraft Build No. 5
mishap was a survivable crash and that all onboard fuel at the time of the
mishap was recovered from the sponson fuel tanks.

Audit Response. The Navy did not present any direct data to support its
assumptions concerning fuel tank compromise during a crash condition.
Further, the Navy’s vertical velocity change data is more than 20 years old.
However, the Navy’s response that supported its “probability that the fuel tank
is compromised during a crash condition” factor of 50 percent seems
reasonable.

10. Is there any data available to be used as a basis to support the
assumption used for the “probability that an ignition source is present
following a post crash fuel spill” factor? If there is no data available to be
used as a basis for this assumption, please explain the basis you used for the
assumption.

Navy Response. The V-22 Program Office stated that the assumption of a
100 percent “probability that an ignition source is present following a post crash
fuel spill” is ultra conservative. Further, the Program Office stated that, when
lacking data, system safety tends to side towards being conservative, and
reiterated that, below 24 feet per second, the crash sequence is controlled. The


                                    57
Program Office also stated that, at fuselage separation or deformation points,
self-sealing breakaway valves are provided and that some crashes beyond 24 feet
per second will not produce an ignition source of sufficient energy to ignite a
fuel source. The Program Office noted that the engines, which are considered
the primary hot surface ignition source, are at the wing tips and are not located
near the fuselage and sponson tanks.

Audit Response. We agree that the assumption of a 100 percent “probability
that an ignition source is present following a post crash fuel spill” is
conservative.

11. Is there any data available to be used as a basis to support the
assumption used for the “probability that occupants are not able to egress
the aircraft during a post crash fire” factor? If there is no data available to
be used as a basis for this assumption, please explain the basis you used for
the assumption.

Navy Response. The V-22 Program Office stated that the assumption used for
the “probability that occupants are not able to egress the aircraft during a post
crash fire” is reasonable because the V-22 has seven egress points and the flight
test operations will be limited to minimum essential crew. Further, the Program
Office stated that those egress points and the test operation limitation should
extend the time required for egress in the event that the engines are the ignition
source. The Program Office noted that, during the Aircraft Build No. 5
mishap, the aircraft experienced a post-crash fire and the crew had adequate
time to egress the aircraft.

The V-22 Program Office stated that a data request was made after the initial
submittal of the Safety Assessment Report to verify the assumption regarding
post-crash fire egress. The Program Office requested data concerning Class A
and B helicopter mishaps that occurred from 1985 to 2002. The Navy
summarized the data it obtained as follows:

       •   37 events were identified involving 236 occupants;

       •   109 occupants were killed; however, the cause of death, namely
           crash impact or post crash fire, was not provided; and

       •   127 occupants survived both the impact and the post-crash fire.

The Program Office assumed that, if all 109 occupant fatalities were the result
of post-crash fire related factors, which is a conservative assumption, the data
indicates that about 53 percent (127 divided by 236) of the occupants were able
to egress the aircraft and were not killed by the post-crash fire. To illustrate its
point, the Program Office provided an example of an aircraft that experienced a
post-crash fire in which the occupants had adequate time to egress the aircraft.




                                     58
Audit Response. The Navy provided summarized information and not
documented data as requested to support the assumption used for the
“probability that occupants are not able to egress the aircraft during a post crash
fire” factor.

12. Have you performed and documented other system safety risk
assessments for the V-22 Program? If you have performed and documented
other system safety risk assessments, please provide a few examples.

Navy Response. The V-22 Program Office stated that System Safety performed
approximately 50 formal risk assessments over the past 5 years and cited
two examples:

       •   Cross Channel Data Link Failures, FRA-2002-01, Jan 02

       •   Rudder Actuator Binding, FRA-2002-03, Dec 01

13. Why doesn’t the model consider a range (sensitivity) of factor
probabilities for the “probability that occupants are not able to egress the
aircraft during a post crash fire” factor, “probability that an ignition
source is present following a post crash fuel spill” factor, “probability that
the fuel tank is compromised during a crash condition” factor, “probability
that a crash occurs over land” factor, and the “probability that a crash is
survivable” factor?

Navy Response. The V-22 Program Office stated that the approach used in the
system safety risk assessment is typical of any analysis conducted by System
Safety. Further, the Program Office stated that the qualitative assessment is
used in conjunction with the quantitative assessment to develop a risk assessment
if sufficient applicable data is available to support such an analysis. The
Program Office also stated that it does not look strictly at either historical data
or reliability numbers, or both, when assessing risk. Instead, the combination
of qualitative and quantitative analyses determines risk. Further, the Program
Office stated that a sensitivity analysis should not be necessary if the
assumptions used are conservative. Therefore, the Program Office concluded
that quantitative analysis is not the only method to use when determining risk.

Audit Response. The Navy is not correct when it stated that a sensitivity
analysis should not be necessary if the assumptions used are conservative. A
sensitivity analysis provides the user of model results with information on the
uncertainty inherent in the results, regardless of whether or not the assumptions
are conservative. Further, the Navy is inconsistent when it implies that
quantitative analysis need not be rigorous because quantitative analysis only
augments qualitative analysis, and then cites quantitative analysis as independent
support for its position. Only two defensible choices exist with respect to
quantitative analysis: either perform it with sufficient rigor to stand alone or do
not perform it.




                                    59
V-22 Test Program
    14. Provide the planned V-22 developmental test and operational test
    program and schedule to include number of planned flight hours.

    Navy Response. The V-22 Program Office stated that they planned to perform
    approximately 2,537 flight hours of V-22 developmental testing for
    four aircraft:

           •   Aircraft Build Nos. 7 and 9, a combined total of 1,429 flight hours;

           •   Aircraft Build No. 8, a total of 548 flight hours; and

           •   Aircraft Build No. 10, a total of 560 flight hours.

    Audit Response. The Navy’s response identified the estimated number of
    planned developmental flight hours; however, the Navy did not provide the
    planned V-22 developmental test and operational test program and schedule, as
    requested, so that we could evaluate the technical risks the aircraft would be
    subjected to during the remaining testing.

    The “V-22 Long-Term Schedule” in the “V-22 Program Status Report to
    Congress,” April 2002, shows that EMD aircraft will be used in flight testing
    through 2007. Further, the “V-22 Developmental Flight Test Schedule” in the
    report shows that the flight testing will include tests of formation flying and
    handling qualities. However, if those tests are conducted in a low-risk
    environment, as discussed in the system safety risk assessment, the Navy will not
    be able to fully meet developmental test requirements to verify:

           •   the status of technical progress,

           •   whether design risks have been minimized, and

           •   the achievement of contract technical performance.

    15. Will the EMD aircraft be used for the operation test and evaluation?

    Navy Response. The V-22 Program Office stated that it would not conduct
    operational test and evaluation with EMD aircraft; however, operational test
    pilots will participate in the EMD program. Further, the Program Office stated
    that a Lot 4, LRIP aircraft, will be the first operational test and evaluation
    aircraft, and it will have nonextensible fuel cells that passed qualification
    testing.

    Audit Response. Although the EMD aircraft may not be used in operational
    testing, the Navy still must rigorously test the EMD aircraft to ensure that the V-22
    aircraft is ready for operational testing.




                                         60
16. How long would the V-22 developmental test and operational test
program schedule be delayed if compliant fuel cells were installed in the
EMD aircraft?

Navy Response. The V-22 Program Office stated that, if compliant fuel cells
were installed in the EMD aircraft, the V-22 developmental test and operational
test program schedule would be delayed 6 to 8 weeks per aircraft once all
material is received.

17. Provide a copy of the waiver for the acceptance of the EMD aircraft
installation of noncompliant sponson fuel cells.

Navy Response. The V-22 Program Office stated that a waiver related to fuel
cells for the EMD aircraft does not exist and that the Government never
officially bought those aircraft. Further, the Program Office stated that
Bell-Boeing maintains configuration control with Defense Contract Management
Agency and Naval Air Systems Command oversight for flight clearances and
airworthiness certification.

18. Has the sponson fuel cell qualification test report (for the EFC
[Engineered Fabrics Corporation] manufactured cells) been reviewed and
approved by the Fuel IPT [integrated product team]? If not, why not, and
when will the test report be reviewed and approved?

Navy Response. The V-22 Program Office stated that the sponson fuel cell
qualification test report for the fuel cells manufactured by Engineered Fabric
Corporation has been reviewed and approved.

Audit Response. The Navy did not indicate who reviewed and approved the
sponson fuel cell qualification test report.

19. How do you reconcile the system safety risk assessment contention that
the EMD aircraft testing will be conservative, and the EMD aircraft will
have limited exposure compared to fleet aircraft resulting in low risk EMD
aircraft flights, with a testing program that requires testers to adequately
validate the aircraft design improvements and determine the aerodynamic
characteristics and operational limitations of the V-22 aircraft?

Navy Response. The V-22 Program Office discussed EMD flight testing,
instrumentation, and maintenance intervals in its response.

         EMD Flight Testing. The V-22 Program Office stated that EMD flight
testing will be conducted in a controlled environment with substantial build-up
or prerequisite testing and planning. Further, the Program Office stated that
flight test plans include a broad range of engineering competencies and must be
approved before beginning flight testing of developmental aircraft. The
Program Office also stated that flight test plans can be subject to the equivalent
of hundreds of years of flight test and risk management experience before they
get to the final review stage. Further, risks are carefully considered and
mitigated to the greatest degree possible.


                                    61
            Instrumentation. The V-22 Program Office stated that instrumentation
    provides data in the form of real time telemetry to the flight test team for the test
    aircraft. Further, the Program Office stated that aircraft response and
    airworthiness is often observed real-time by flight test engineers, who
    communicate with test crews to provide them with situational awareness and
    professional knowledge that is not available to the fleet pilot. The Program
    Office also stated that flight test engineers routinely abort a flight when an
    aircraft limit is exceeded, thereby limiting exposure of a flight test crew to an
    unsafe condition. In contrast, the fleet operational pilots do not operate in this
    relatively pristine environment and are not subject to the oversight mandated by
    the integrated test team.

             Maintenance Intervals. The V-22 Program Office stated that, within
    flight test organizations, maintenance intervals are much more frequent than
    would be seen for a fleet aircraft. Further, the Program Office stated that the
    amount of oversight and scrutiny placed upon daily aircraft operations is greater
    than what would be typical of fleet operations.

    Audit Response. Although the measures described by the Navy are risk
    abating, EMD aircraft tests to identify undetermined technical characteristics
    and the extent to which the V-22 can meet mission needs would need to test the
    limits of the aircraft. To adequately test such characteristics and limitations
    would not seem to be “conservative” or low risk.

    Further, the Navy substantiated the higher risks expected during developmental
    testing in their response to Issue 3 when the Program Office stated that
    developmental aircraft generally have very few flight hours compared to the
    number of flight hours the aircraft accumulates during deployment; therefore,
    mishap rates are generally higher for developmental aircraft. Accordingly, the
    Navy’s position that the developmental aircraft testing will be conservative and
    have limited exposure compared to fleet aircraft resulting in low risk EMD
    aircraft flights is not defendable. Developmental testing facilitates design
    maturation, determines unknown technical boundaries, establishes the extent to
    which the aircraft meets the mission needs, and determines operational
    limitations so that that operational aircraft and crew members’ exposure to risks
    will be minimized. Developmental aircraft need to test and define performance
    bounds and operational aircraft need to have operational limitations stemming
    from the results of the developmental testing.

Conclusion
    Based on the data that the Navy submitted on July 12, 2002, to support the
    May 24, 2002, System Safety Risk Assessment, we again concluded that the
    methodology used to make the assessment was flawed. Specifically, the Navy
    made assumptions concerning the “probability of crash,” the “probability that
    crash is survivable,” and the “probability that the crash occurs over land” that
    were not adequately supported in the documentation provided. Consequently,
    the System Safety Risk Assessment that the Navy prepared did not support the
    basis for assessing the safety risk as “1D (medium) risk” (undesirable risk)


                                         62
rather than “high risk” (unacceptable risk), the next higher level of safety risk.
Using the crash frequency probability data that the Navy did provide and
adjusting for the revised methodology, the safety risk assessment code would
increase from undesirable or a medium safety risk to unacceptable or high safety
risk.




                                    63
Appendix O. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
General Counsel of the Department of Defense
Director, Operational Test and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Secretary of the Navy
Commandant of the Marine Corps
   Aviation Department
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
   Commander, Naval Air Systems Command
      Program Executive Officer, Air Anti-Submarine Warfare, Assault, and Special
         Mission Programs
         V-22 Program Manager
Naval Inspector General
Auditor General, Department of the Navy
Inspector General of the Marine Corps
Commander, Operational Test and Evaluation Force
   Operational Test Squadron HMX-1

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget


                                          64
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         65
___________________________________________________________________



Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                             67
Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

       Mary L. Ugone
       John E. Meling
       Jack D. Snider
       Neal J. Gause
       Alice F. Carey
       Tracey E. Dismukes
       Tomasa Pack
       Frank C. Sonsini
       Kenneth H. Stavenjord
       James D. Hartman
       Chandra P. Sankhla
       Jacqueline N. Pugh
